<html>
<title> - MARKUP OF: H.R. 4256, ``INVESTING IN MAIN STREET ACT OF 2021'', H.R. 4481, ``SMALL BUSINESS 7(A) LOAN AGENT TRANSPARENCY ACT'', H.R. 4531, ``7(A) LOAN AGENT OVERSIGHT ACT'', H.R. 3469, ``VETERAN ENTREPRENEURSHIP TRAINING ACT OF 2021'', H.R. 3462, ``SBA CYBER AWARENESS ACT'', H.R. 4515, ``SMALL BUSINESS DEVELOPMENT CENTER CYBER TRAINING ACT OF 2021'', H.R. 4513, ``SMALL BUSINESS ADVANCED CYBERSECURITY ENHANCEMENTS ACT OF 2021''</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


 MARKUP OF: H.R. 4256, ``INVESTING IN MAIN STREET ACT OF 2021'', H.R. 
 4481, ``SMALL BUSINESS 7(A) LOAN AGENT TRANSPARENCY ACT'', H.R. 4531, 
        ``7(A) LOAN AGENT OVERSIGHT ACT'', H.R. 3469, ``VETERAN 
    ENTREPRENEURSHIP TRAINING ACT OF 2021'', H.R. 3462, ``SBA CYBER 
 AWARENESS ACT'', H.R. 4515, ``SMALL BUSINESS DEVELOPMENT CENTER CYBER 
     TRAINING ACT OF 2021'', H.R. 4513, ``SMALL BUSINESS ADVANCED 
                CYBERSECURITY ENHANCEMENTS ACT OF 2021''

=======================================================================

                                HEARING
                               
                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             JULY 29, 2021

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                               

            Small Business Committee Document Number 117-029
             Available via the GPO Website: www.govinfo.gov
             
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-660                     WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                 NYDIA VELAZQUEZ, New York, Chairwoman
                          JARED GOLDEN, Maine
                          JASON CROW, Colorado
                         SHARICE DAVIDS, Kansas
                         KWEISI MFUME, Maryland
                        DEAN PHILLIPS, Minnesota
                         MARIE NEWMAN, Illinois
                       CAROLYN BOURDEAUX, Georgia
                         TROY CARTER, Louisiana
                          JUDY CHU, California
                       DWIGHT EVANS, Pennsylvania
                       ANTONIO DELGADO, New York
                     CHRISSY HOULAHAN, Pennsylvania
                          ANDY KIM, New Jersey
                         ANGIE CRAIG, Minnesota
              BLAINE LUETKEMEYER, Missouri, Ranking Member
                         ROGER WILLIAMS, Texas
                        JIM HAGEDORN, Minnesota
                        PETE STAUBER, Minnesota
                        DAN MEUSER, Pennsylvania
                        CLAUDIA TENNEY, New York
                       ANDREW GARBARINO, New York
                         YOUNG KIM, California
                         BETH VAN DUYNE, Texas
                         BYRON DONALDS, Florida
                         MARIA SALAZAR, Florida
                      SCOTT FITZGERALD, Wisconsin

                 Melissa Jung, Majority Staff Director
            Ellen Harrington, Majority Deputy Staff Director
                     David Planning, Staff Director
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Nydia Velazquez.............................................     1
Hon. Blaine Luetkemeyer..........................................     2

                                APPENDIX

Additional Material for the Record:
    H.R. 4256....................................................    20
    H.R. 4481....................................................    22
    H.R. 4531....................................................    26
    H.R. 3469....................................................    29
    H.R. 3462....................................................    38
    H.R. 4515....................................................    43
    H.R. 4513....................................................    47
    Mark-up Remarks--Boots to Business submitted by Rep. Brad 
      Schneider..................................................    57
    America's SBDC...............................................    61

 
 MARKUP OF: H.R. 4256, ``INVESTING IN MAIN STREET ACT OF 2021'', H.R. 
 4481, ``SMALL BUSINESS 7(A) LOAN AGENT TRANSPARENCY ACT'', H.R. 4531, 
        ``7(A) LOAN AGENT OVERSIGHT ACT'', H.R. 3469, ``VETERAN 
    ENTREPRENEURSHIP TRAINING ACT OF 2021'', H.R. 3462, ``SBA CYBER 
 AWARENESS ACT'', H.R. 4515, ``SMALL BUSINESS DEVELOPMENT CENTER CYBER 
     TRAINING ACT OF 2021'', H.R. 4513, ``SMALL BUSINESS ADVANCED 
                CYBERSECURITY ENHANCEMENTS ACT OF 2021''

                              ----------                              


                        THURSDAY, JULY 29, 2021

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2360 Rayburn House Office Building and via Zoom, Hon. Nydia 
Velazquez [chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Golden, Crow, Davids, 
Mfume, Phillips, Newman, Carter, Bourdeaux, Chu, Evans, 
Delgado, Houlahan, Andy Kim, Craig, Luetkemeyer, Williams, 
Stauber, Meuser, Tenney, Garbarino, Young Kim, Van Duyne, 
Donalds, and Fitzgerald.
    Chairwoman VELAZQUEZ. Good morning. With a quorum being 
present, I call this morning's meeting of the Committee on 
Small Business to order. Without objection, the Chair is 
authorized to declare recess at any time.
    I would like to begin by noting some important 
requirements. In accordance with the Attending Physician's most 
recent guidance, all Members and staff who attend this hybrid 
markup in person will be required to wear masks in the hearing 
room. Furthermore, all Members and staff who have not been 
fully vaccinated must also maintain 6-foot social distancing 
from others. With that said, Members will be allowed to briefly 
remove their masks if they have been recognized to speak.
    As required by House rule, copies of the measures have been 
made available to Members and the public at least 24 hours in 
advance.
    Today, we will be considering seven bipartisan bills that 
will make it easier for small business owners across America to 
launch and grow their small businesses. As we know, access to 
capital remains one of the biggest challenges facing small 
businesses today, and we will take up three bills to improve 
SBA programs to meet the capital needs for small firms.
    Besides access to capital, cybersecurity is increasingly 
becoming a threat to entrepreneurial success. To that end, we 
will consider three bills to address the increasing and 
evolving cyber attacks aimed at small businesses.
    Finally, we will also take up a bill to assist aspiring 
veteran entrepreneurs who have made many sacrifices for our 
country.
    Before we get down to business, I would like to thank the 
Ranking Member, Mr. Leutkemeyer, for his collaboration on these 
seven bills, as well as the staff of the Small Business 
Committee from both sides. I look forward to working on many 
more. Our small businesses depend on our bipartisanship and 
cooperation now more than ever.
    The seven bills that we are considering today are a product 
of the hearings and hard bipartisan work of our Members. I 
strongly support each of the seven bills to be marked up today.
    I would like to recognize the distinguished Ranking Member, 
Mr. Leutkemeyer, for his opening statement.
    Mr. LEUTKEMEYER. Thank you, Madam Chair, for holding this 
markup. We believe that this legislation that we are talking 
about today will help strengthen our nation's job creators and 
the Small Business Administration's programs. The SBA, along 
with many other Federal agencies, raced to assist the nation as 
COVID-19 descended upon America.
    Through the quick action taken by the Trump administration 
and Congress, numerous small business relief programs were 
created to help our nation's smallest firms survive the 
pandemic as well as the state and local shutdown orders that 
followed. Many of these programs included the Paycheck 
Protection Program, PPP, which proved to be a lifeline during 
many months of uncertainty. The PPP program also proved to be a 
major success through its partnership with private sector 
lenders to get money to a struggling small business more 
quickly and efficiently.
    With that being said, while our country continues to move 
forward toward recovery, many of SBA's COVID programs are 
nearing completion. For example, nearly 11 million loans 
disbursed under PPP are now going through the PPP loan 
forgiveness process. Although the PPP has been and continues to 
be successful through private sector lending, other programs 
have been hampered with countless instances of fraud, 
bureaucratic delays, and constitutional questions.
    According to the SBA's Inspector General, the Economic 
Injury Disaster Loan, EIDL program, which is a direct lending 
program through SBA, not private lenders, has been subject to 
rampant levels of fraud and abuse. Additionally, the Shuttered 
Venue Operators Grant, SVOG program, has been plagued with 
inexcusable delays while the Restaurant Revitalization Fund 
Program, RRF, has been ruled unconstitutional due to biased 
priority groups the Democrats created in the enacting 
legislation.
    Nevertheless, our nation's small businesses, entrepreneurs, 
and startups continue to face extreme obstacles throughout the 
recovery due to the Democrat-induced inflation, the looming 
labor crisis, and the potential for increased taxes for the 
middle class. These headwinds are putting main street, USA's 
recovery in jeopardy. We must fix these issues to protect the 
American worker.
    On that note, I look forward to working with all of my 
colleagues today and going forward to discuss pro-growth 
policies that will produce an environment where small 
businesses can operate independently without the government 
standing in their way. While we have these debates it is 
critical that we also ensure the SBA's traditional programs are 
operating efficiently and effectively, and that is what bring 
us to today's markup.
    In a bipartisan fashion, Members on both sides of the aisle 
have considered and have identified areas where this Committee 
can adjust existing SBA programs to better position small 
businesses. Many of these bills were in the works in previous 
sessions of Congress, but some take a new approach to provide 
increased oversight of the SBA's programs. With the SBA's 
lending programs, the Small Business Investment Company, SBIC, 
continues to provide small businesses across the United States 
with access to capital. Today's SBIC legislation will provide 
even more access to capital by examining the role of banks and 
other savings institutions within the program.
    Beyond the SBIC program we have two bills that examine the 
role of loan agents within the SBA's 7(a) Loan Program. The 
7(a) Loan Program, the SBA's largest traditional lending tool 
which provides access to capital for small businesses that 
cannot find it elsewhere, as the SBA continues to use more loan 
agents within their programs, it is essential that the agency 
has a clear view of how these agents operate.
    According to an October 2020 report, the SBA's Inspector 
General stated, ``Previous OIG audits and investigations have 
shown SBA could not effectively identify and track loan agent 
involvement in its 7(a) and 504 Loan programs or portfolios and 
have outdated enforcement regulations. OIG investigations have 
also revealed a pattern of fraud by loan packagers and other 
fee-based agents in the 7(a) Loan Program involving hundreds of 
millions of dollars.''
    The bills before by the gentleman from Pennsylvania, Mr. 
Meuser, and the gentleman from Minnesota, Mr. Phillips, will 
focus on loan agents and examine the SBA's oversight 
capabilities. The discussion of loan agents will not end today. 
I look forward to exploring their role within this program and 
other SBA programs moving forward.
    When it comes to our veterans, the Boots to Business 
Program is an important resource available to the men and women 
who have valiantly served our country. I commend the gentleman 
from Texas, Mr. Williams, and the gentleman from Illinois, Mr. 
Schneider, for continuing the Boots to Business effort during 
the 117th Congress.
    Lastly, the Committee will examine three separate 
cybersecurity bills that will address the needs of small 
businesses as well as ensuring that SBA has a safe and sound 
cyber infrastructure network. As we all heard at our cyber 
hearing last week, America's smallest firms are increasingly 
vulnerable to the exploits of cybercriminals. Often a cyber 
attack on a small business results in a permanent operational 
damage to its ecosystem. We must have the structure in place to 
assist these small businesses through difficult times and 
educate small business owners on the tools available to protect 
them from these cyber attacks.
    Again, I would like to thank the Chair for bringing these 
bills to the Committee. I support the approach taken by the 
Committee Members to address these issues.
    With that, Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. Thank you very much. The gentleman 
yields back.
    Before we get into the individual bills, are there any 
Members present who seek recognition for the purpose of making 
an opening statement?
    Seeing none, we will move to consideration of H.R. 4256, 
the ``Investing in Main Street Act of 2021,'' introduced by 
Congresswoman Chu and cosponsored by Congressman Garbarino. 
This bill will harmonize the Small Business Investment Act of 
1958 with the Office of the Comptroller of the Currency's 
national bank charter percentage requirements.
    I would now like to recognize the gentlewoman from 
California, Ms. Chu, the sponsor of the bill, for an opening 
statement.
    Ms. CHU. Thank you, Chairwoman Velazquez and Ranking Member 
Luetkemeyer for your support of this legislation. Also, thank 
you to my colleague, Representative Garbarino, for your 
partnership.
    The Investing in Main Street Act would make a simple 
commonsense change to small business investing laws to ensure 
that SBA-certified small business investment centers, or SBICs, 
can take full advantage of capital available from traditional 
banks and federal saving associations. Even though banking 
rules allow financial institutions to invest up to 15 percent 
of their capital and surplus in SBICs, small business investing 
rules prevent that. The Small Business Investment Act caps 
these investments far lower at just 5 percent of capital and 
surplus. The Investing in Main Street Act amends this outdated 
law to ensure that banks can invest the full 15 percent in 
SBICs, a simple change that will dramatically increase the 
amount of investment capital available to our country's small 
businesses.
    By raising this cap, this legislation will deliver more 
investments and more financing to our small businesses for whom 
even small investments can mean so much. Already SBICs have 
helped companies like Tesla, Apple, and Intel get off the 
ground back when they were considered small businesses. They 
fill a gap in the investment ecosystem and level the playing 
field by providing equity investments and financing 
opportunities to the smallest businesses which face the highest 
barriers to secure investments from traditional private 
investors.
    In fact, in fiscal year 2020, SBICs made nearly a quarter 
of their financing to underserved businesses and the nearly 300 
certified SBICs in operation today have invested or committed 
$32 billion in small businesses nationwide. Last year, in my 
state of California alone, SBICs made nearly 300 financings 
totaling over $670 million. By raising the investment cap from 
5 percent to 15 percent, we could potentially triple those 
numbers in the years to come. That growth will be so important 
as our country faces a long economic recovery ahead of us, 
especially as the Delta variant threatens to erase some of the 
hard-earned gains we made this spring and summer.
    America's small businesses have endured one of the most 
challenging periods in our country's history and now is the 
time to help them rebuild and grow. The Investing in Main 
Street Act would do just that. I urge the Committee to vote yes 
on this critical legislation, and I yield bank.
    Chairwoman VELAZQUEZ. Thank you. The gentlewoman yields 
back. I would now like to recognize the gentleman from New 
York, Mr. Garbarino, for an opening statement.
    Mr. GARBARINO. Thank you, Madam Chair, and thank you 
Ranking Member for holding today's markup on all the bills 
before us. I would also like to thank Representative Judy Chu 
from California for joining forces with me to better support 
the SBA's Small Business Investment Company program.
    The SBIC program is a unique tool that provides private 
equity capital to small businesses in a prudent way. In fiscal 
year 2020, the program helped finance over 1,000 small 
businesses and supported over 91,000 jobs, all while running on 
zero cost subsidy to the American taxpayer.
    However, as this program advances, its rules regarding the 
role of banks and savings associations are becoming 
increasingly outdated. H.R. 4256, the ``Investing in Main 
Street Act of 2021,'' will update these rules by addressing how 
much money a bank or other savings institutions can invest in 
an SBIC from 5 percent to 15 percent. Importantly, with any 
investment above 5 percent a bank or savings institution would 
need the approval from its federal financial regulator in order 
to proceed.
    The changes within H.R. 4256 would also level the SBIC 
rules with longstanding requirements at the Office of the 
Comptroller of the Currency. The SBIC program has the ability 
to play an important role in the long-term outlook for small 
businesses, but Congress must modernize its rules to keep pace. 
H.R. 4256 delivers modernization and provides further access to 
capital for small businesses in my district in New York and 
beyond. I look forward to continuing with my counterparts to 
ensure this bill makes progress and is sent to the House floor 
swiftly.
    Madam Chair, I yield back the balance of my time.
    Chairwoman VELAZQUEZ. The gentleman yields back. Are there 
any other Members who wish to be recognized for a statement on 
H.R. 4256?
    I would now like to recognize the Ranking Member.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. I would like to 
thank the gentlelady from California, Ms. Chu, and the 
gentleman from New York, Mr. Garbarino, for working on this 
legislation in the 117th Congress.
    The changes reflected in H.R. 4256 will address and update 
how banks and savings institutions operate within the SBIC 
program. As we continue to examine the post COVID-19 small 
business environment it will be critically important to ensure 
the existing SBA program are ready for recovery. H.R. 4256 is a 
step in the right direction. The Investing in Main Street Act 
passed the House in the last two Congresses and I look forward 
to working with the Chair to ensure it passes again and moves 
forward all the way to the Senate. I urge my colleagues to 
support H.R. 4256.
    With that, Madam Chair, I yield back the balance of my 
time.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
I would now like to recognize myself briefly.
    Improving access to capital has been a top priority of mine 
and it is important that SBA programs and rules governing them 
are consistent, especially if multiple agencies have issued 
similar guidance. This bill improves SBA access to capital 
programs by harmonizing the statutory provisions of the Small 
Business Investment Act with similar regulations published by 
the OCC.
    Thank you, Ms. Chu and Mr. Garbarino, for reintroducing 
this bill. I am pleased to support it and I urge a yes vote.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 4256. The clerk will report the 
bill.
    H.R. 4256
    The CLERK. H.R. 4256, ``Investing in Main Street Act of 
2021''----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4256 is 
considered as read and open for amendment at any time. Does 
anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 4256.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4256 
is agreed to.
    The question now occurs on reporting H.R. 4256 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4256 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    H.R. 4481
    Our second bill today is H.R. 4481, the ``Small Business 
7(a) Loan Agent Transparency Act,'' introduced by Congressman 
Phillips and cosponsored by Congressman Meuser. This bill will 
establish a registration system for 7(a) agents by assigning 
them a unique identifier. It allows SBA to collect data to help 
track and evaluate the performance of loans generated through 
loan agent activity.
    I would now like to recognize the gentleman from Minnesota, 
Mr. Phillips, the sponsor of the bill, for an opening 
statement.
    Mr. PHILLIPS. Thank you, Chairwoman Velazquez, and 
greetings to my colleagues. Let me just begin quickly. I know 
it is in vogue to criticize one party, Democrats, for inflation 
right now. I want to remind everybody that after an economy is 
shut down because of a pandemic we should expect inflation. I 
think as Members of the Small Business Committee having a 
markup today, we should be celebrating the fact that our GDP in 
the United States of America now exceeds pre-pandemic levels. 
Let us do a little celebrating in a Committee that surely 
should on a day like this.
    I want to speak to H.R. 4481 and urge support of the bill, 
the ``Small Business 7(a) Loan Agent Transparency Act.'' The 
Small Business Administration 7(a) Loan Guarantee Program is 
the agency's flagship loan program. In fiscal year 2020, the 
SBA approved over 42,000 7(a) loans, totaling nearly $22.6 
billion.
    The SBA also administered several subprograms within 7(a) 
that offers streamlined and expedited loan procedures for 
particular groups of borrowers, including the SBA Express and 
Community Advantage Pilot Programs. It was on this framework 
that Congress first established the Paycheck Protection 
Program, which has been responsible for extending more than 
$790 billion in relief to small businesses throughout the 
United States in the wake of the coronavirus pandemic. Together 
these programs work to fulfill the SBA's mission of aiding and 
protecting the interests of small businesses, particularly 
those that might not otherwise obtain financing under 
reasonable terms and conditions.
    The capital provided by the 7(a) program supports small 
businesses seeking to purchase real estate, equipment, and 
supplies to provide short- and long-term working capital or to 
refinance current business debt. Its importance cannot be 
overstated.
    In February of 2020, this Committee held a hearing to 
examine the management of SBA's Office of Credit Risk 
Management, which is responsible for the oversight of SBA 
lenders and its 7(a) loan portfolio. During the hearing OCRM's 
director testified that SBA lacks a way to uniquely identify 
and systemically track loan agent activity. Instead, they must 
rely on self-reported lender reviews to obtain information 
about 7(a) agents.
    Without these unique identifiers there is very little data 
that is collected about those responsible for the processing 
billions and billions in taxpayer funds and working with small 
businesses across the country. This can potentially place small 
businesses at risk and is an opportunity for the adoption of a 
bipartisan commonsense solution to help protect the hard-earned 
resources of Americans.
    The ``Small Business 7(a) Loan Agent Transparency Act'' 
would require OCRM to establish a registration system for 7(a) 
agents that collects data to help OCRM track and evaluate 
performance of loans generated through agent activity. OCRM 
will need to establish a database with the type of services 
performed by 7(a) agents and require the registration before an 
agent provides services to a lender or borrower. These 
provisions will improve enforcement and oversight actions and 
will address the increased risk introduced by loan agents, 
which has been cited as one of the top management and 
performance challenges facing SBA.
    While on this topic of strengthening oversight for the 7(a) 
program, I would also like to briefly speak in support of the 
bill from my friend, the gentleman from Pennsylvania, Mr. 
Meuser, his ``7(a) Loan Agent Oversight Act.'' That bill is a 
companion to my own and would require OCRM to submit a report 
to Congress on the performance of loans that are generated 
through agent activity and any risks involved in that work. I 
applause and celebrate Mr. Meuser's leadership on this 
legislation and look forward to voting in favor of it this 
morning as well.
    I want to thank the Chairwoman, the Ranking Member, and the 
Small Business Committee majority and minority staffs for 
working so diligently with us on this legislation. I also want 
to thank my friend and colleague Mr. Meuser for his support and 
coauthorship of the bill. Finally, to extent my gratitude to 
our cosponsors, Reps. Donalds, Garbarino, Tenney, Salazar, and 
Oversight Ranking Member Van Duyne.
    I urge the Committee to adopt this measure and its 
companion H.R. 4531, and report them favorably to the House.
    With that, Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    I would now like to recognize the cosponsor of the bill, 
Congressman Meuser, for an opening statement.
    Mr. MEUSER. Well, thank you very much, Madam Chair, for 
holding this markup to evaluate a number of these very 
important bills that are very crucial, we feel, to the small 
business ecosystem.
    As we examine access for capital for small businesses it is 
imperative that we also look at the SBA's existing 7(a) Loan 
Program, as we are. I want to thank my friend, the gentleman 
from Minnesota, for his leadership as well and for working with 
me on the role agents will pay within this program. Thank you, 
Mr. Phillips.
    I do look forward to working in a bipartisan manner to 
ensure the SBA has the correct level of oversight in place for 
the growing population of agents within its flagship 7(a) Loan 
Program, as we all understand how important this is.
    So, I thank you, Madam Chair, and I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Are there 
any other Members who wish to be recognized for a statement on 
H.R. 4481?
    I now recognize the Ranking Member for an opening 
statement.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. The utilization 
and role of loan agents within the SBA's government-guaranteed 
lending programs is critically important. This bill and H.R. 
4531 will spark an important conversation on whether SBA has 
its eyes on who is participating in these programs. I have been 
told of many problems with loan agents and we are going to have 
to take a hard look at the role and activities of loan agents. 
Proper administration oversight of these programs will remain a 
high priority of mine as this Congress moves forward.
    I want to thank both gentlemen for working on these bills 
and proposing solutions. I urge my colleagues to support the 
bill in front of us today. I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Thank you. 
I would now like to recognize myself briefly.
    Our Committee has consistently heard from the agency's 
watchdog about the increased risk associated with loans 
originated through agent activity.
    In October 2020, SBA's IG identified increased risk 
introduced by loan agents as one of the top management and 
performance challenges facing the agency in this fiscal year. 
This bill sets up a registry for loan agents at SBA to help the 
agency monitor loan performance for loans that originated with 
agents.
    I want to really thank Mr. Phillips for introducing this 
bill and I am pleased to support it. I urge a yes vote.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 4481. The clerk will report the 
bill.
    The CLERK. ``H.R. 4481, the Small Business 7(a) Loan Agent 
Transparency Act.''
    Chairwoman VELAZQUEZ. Without objection, H.R. 4481 is 
considered as read and open for an amendment at any point. Does 
anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 4481.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4481 
is agreed to.
    The question now occurs on reporting H.R. 4481 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4481 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    H.R. 4531
    The next bill under consideration is H.R. 4531, the ``7(a) 
Loan Agent Oversight Act,'' introduced by Congressman Meuser 
and cosponsored by Congressman Phillips. This bill will require 
an annual report by SBA on the performance of and risks 
associated with loans generated through loan agent activity.
    I would now like to recognize the gentleman from 
Pennsylvania, Mr. Meuser, the sponsor of the bill, for an 
opening statement.
    Mr. MEUSER. Thank you very much, Madam Chair. As I 
mentioned earlier, it is imperative that the SBA has the 
oversight capabilities in place to manage its access to capital 
programs. With that in mind, Congress must be in a position to 
determine if congressional intent is being followed. Without 
accurate information we cannot perform that oversight that is 
so needed to safeguard and protect American taxpayer dollars.
    While Mr. Phillips' bill, H.R. 4481, takes the steps to 
ensure the SBA can track the role of agents within the SBA's 
largest traditional lending program, my bill, H.R. 4531, the 
``7(a) Loan Agent Oversight Act,'' will ensure Congress 
receives the data it needs to conduct proper oversight. H.R. 
4531 would provide information on how many loans have been 
processed with the assistance of loan agents and the default 
rates of loans that are associated with loan agents.
    Additionally, the legislation requires the SBA to perform a 
risk analysis on agents who operate within the program. At the 
end of the day, these are government programs that were 
developed to assist main street, USA for access to capital. 
Given this important mission, Congress and the SBA must conduct 
the appropriate level of oversight. The information that will 
be provided to Congress under H.R. 4531 will be paramount as we 
measure the effectiveness of these programs and whether the SBA 
has the correct oversight requirements in place to administer 
such a significant program.
    As more small businesses utilize the SBA's programs, it is 
increasingly important for Congress to understand how different 
groups assist small businesses and lenders through the lending 
process.
    Madam Chair, thank you for bringing these bills forward and 
I look forward to working with my colleagues to further enhance 
the small business environment in Pennsylvania and across the 
nation. I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    Are there any other Members who wishes to be recognized for 
a statement on H.R. 4531?
    I will now recognize the Ranking Member.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. SBA's Inspector 
General has spoken clearly on loan agents within the SBA 
programs. The bills before us today heed the warnings of the 
Inspector General, who lists loan agents as a top management 
and performance challenge for the agency. With documented fraud 
totaling hundreds of millions of dollars, H.R. 4531 will shed 
light on what is truly happening within this program and 
provide Members of Congress the information they need to 
continue to safeguard these programs.
    I look forward to examining the role of loan agents within 
the traditional programs of SBA and the COVID relief programs 
that were created and activated during the pandemic. I commend 
Ranking Member Meuser of the Subcommittee on Economic Growth, 
Tax, and Capital Access for crafting this legislation with 
Chairman Phillips of the Oversight, Investigations, and 
Regulations Subcommittee.
    Madam Chair, with that, I urge my colleagues to support 
H.R. 4531, and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
Now I would like to recognize myself briefly.
    To complement the loan agent registration established under 
Mr. Phillips' bill it is important for the agency to also 
report back to Congress and the public on the performance of 
this loan. This bill requires such a report on an annual basis.
    I want to thank Mr. Meuser for introducing this bill and I 
am pleased to support it. I urge a yes vote.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 4531. The clerk will report the 
bill.
    The CLERK. H.R. 4531, the 7(a) Loan Agent Oversight----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4531 is 
considered as read and open for amendment at any time.
    Does anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 4531.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4531 
is agreed to.
    The question now occurs on reporting H.R. 4531 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4531 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    H.R. 3469
    We will now move on to H.R. 3469 introduced by Congressman 
Schneider and cosponsored by Congressman Williams. H.R. 3469 
makes improvements to SBA's Boots to Business program as well 
as offering certainty to transitioning veterans by authorizing 
the program for 5 years.
    I would now like to recognize the gentleman from Texas, Mr. 
Williams, for an opening statement.
    Mr. WILLIAMS. Thank you, Madam Chair. I represent Fort 
Hood, one of the largest military bases in the world, and it is 
a great honor to fight on behalf of these brave individuals 
every day in Washington. Our veterans and servicemembers play a 
vital role in our entrepreneurship economy.
    These honorable men and women who served their country 
deserve to be equipped with the training and expertise to make 
a successful career transition from the military. Many of them 
already have the leadership. They have got problem-solving, 
their communications skills are the best, and we have in the 
armed forces skills that translate well into entrepreneurial 
and business success.
    The Boots to Business entrepreneurial education and 
training program administered by the SBA's Veterans Business 
Outreach Centers is a valuable resource for transitioning 
servicemembers looking to start their own businesses. This 
program is about more than just getting a job. It is about 
getting a career and that is what is important, and ensuring 
our veterans can successfully transition from the battlefield 
to the business world.
    That is why I am proud to co-lead with Congressman 
Schneider the ``Veterans Entrepreneurship Training Act of 
2021,'' which codifies the Boots to Business program for 5 
years. It will provide our veterans and military families with 
a curriculum to lead them through key steps for creating 
business concepts and give them the foundational knowledge to 
bring their plan into fruition.
    Additionally, this legislation facilitates the sharing of 
materials with Departments of Defense and Veterans Affairs to 
include on their websites, manuals, and local facilities and 
further expand the impact of this program. This legislation 
passed the House with almost unanimous support last Congress 
and I urge my colleagues to support our veteran entrepreneurs 
again this Congress with H.R. 3469.
    With that, Madam Chair, I yield my time back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back.
    I would like to enter into the record Mr. Schneider's 
statement. Without objection, his statement is entered for the 
record.
    I would like to recognize the Ranking Member.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. It is an honor to 
support legislation that empowers our veterans in their quest 
for entrepreneurship. Last year, the Boots to Business program 
supported over 20,000 veterans, servicemembers, and military 
spouses worldwide through the Introduction to Entrepreneurship 
course.
    Our servicemembers are our nation's best and brightest, and 
this bipartisan legislation will codify the Boots to Business 
program for 5 years to further assist transitioning 
servicemembers in launching and growing their own small 
businesses.
    With that, Madam Chair, I urge my colleagues support and I 
yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
I now would like to recognize myself briefly.
    Starting a business after leaving military service provides 
an opportunity for veterans to not only build a new career, but 
to secure their livelihoods. Authorizing the Boots to Business 
program for the next 5 years will provide more than 18,000 new 
servicemembers each year with the counseling, training, and 
technical assistance necessary to launch and grow their small 
businesses.
    The skills they develop in the military--leadership, 
perseverance, resourcefulness, and discipline--make them ideal 
business owners. They are dedicated to their local communities 
and play a critical role in boosting economic growth.
    I want to thank Representative Schneider and Representative 
Williams for their bipartisan work on this bill. I urge a yes 
vote for those military servicemembers who have served this 
country honorably.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 3469. The clerk will report the 
bill.
    The CLERK. H.R. 3469----
    Chairwoman VELAZQUEZ. Without objection, H.R. 3469 is 
considered as read and open for amendment at any time.
    Does anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 3469.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 3469 
is agreed to.
    The question now occurs on reporting H.R. 3469 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 3469 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    H.R. 3462
    We will now consider H.R. 3462, the ``SBA Cyber Awareness 
Act,'' introduced by Congressman Crow and cosponsored by 
Congresswoman Young Kim. This bill directs the SBA to issue 
reports on its cybersecurity infrastructure and in the event of 
cyber threats, breaches, and cyber attacks at the agency.
    I would now like to recognize Congressman Crow from 
Colorado, the sponsor of the bill, for an opening statement.
    Mr. CROW. Madam Chairwoman, thank you for the opportunity 
to speak in support of H.R. 3462, the ``SBA Cyber Awareness 
Act.''
    Our small businesses are the backbone of our economy, but 
are increasingly the target of cyber attacks and theft of data 
and intellectual property. Unfortunately, federal agencies are 
not immune to such attacks either. According to the SBA's 
Office of the Inspector General, IT security is one of the most 
serious management and performance challenges facing the agency 
in more than 20 years.
    Over the course of the COVID-19 pandemic, unprecedented 
demand for relief programs, like PPP and EIDL, have overwhelmed 
SBA's legacy systems. As a result, the glitch in the EIDL 
application system led to an exposure of personal information 
of over 8,000 applicants with no public announcement of the 
data breach until weeks later.
    The SBA Cyber Awareness Act would direct the SBA to issue 
an annual report assessing its cybersecurity infrastructure. 
The bill also requires the SBA to report cyber threats, 
breaches, and cyber attacks to the committees of jurisdiction 
and notify affected individuals within 30 days of an incident.
    Cyber attacks are one of the biggest threats to our economy 
and small businesses. This bill would ensure that we are doing 
everything we can to protect the millions of small businesses 
the SBA serves and prepare them for 21st century threats.
    I urge my colleagues to support the ``SBA Cyber Awareness 
Act'' and I thank the Chairwoman for the opportunity to speak 
on its behalf, and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
Now I would like to recognize the gentlelady from California, 
Ms. Kim, for an opening statement. She is the cosponsor of the 
bill.
    Ms. YOUNG KIM. Thank you, Madam Chair. I would like to be 
recognized to talk in support of the bill, H.R. 3462. I want to 
thank the Chairwoman and Ranking Member for holding this 
important markup.
    I appreciate our Committee's focus on cybersecurity with 
the hearing last Tuesday as well as today with several 
cybersecurity bills before us. One of the discussion points 
raised in last Tuesday's cybersecurity hearing was the concern 
small businesses have with the government's own cybersecurity 
measures. Many of us sitting in this room have been the victims 
of a cyber attack on a government agency, like the OPM data 
breach in 2015. We know how critical it is for the government 
to protect its networks and safeguard our own personal 
information that we disclose to the government. This is 
important data, like our birthdays and Social Security numbers.
    Fifty percent of small businesses with 500 or less 
employees say that it is likely that they will experience a 
cyber attack in the next 12 months. One in four are 
experiencing more cyber attacks compared to a year ago. That is 
why I am voicing my support for H.R. 3462, the ``SBA Cyber 
Awareness Act.'' I want to thank my colleague and my friend, 
Mr. Crow, for working with me on this important legislation. 
The ``SBA Cyber Awareness Act'' promotes transparency within 
the SBA, so that Congress and affected individuals with data 
housed in SBA systems are timely notified in the event of a 
cyber incident.
    When the SBA discovered a flaw in its EIDL application 
system, leading to the exposure of personal information for up 
to 8,000 individuals, the agency failed to make any public 
announcement of the breach. It was not until weeks later that 
the SBA notified affected individuals or even Members of 
Congress. This was simply unacceptable and I believe the urgent 
necessity of this legislation is very clear.
    In addition to timely notification, the bipartisan bill 
requires an annual cybersecurity report from the SBA, detailing 
any cyber incidents and remediation efforts undertaken as well 
as an assessment of the SBA's information technology and 
cybersecurity infrastructure. Such measures can only enhance 
the cybersecurity measures in place at the SBA and may even 
eleviate some of the concerns small business owners and 
entrepreneurs might have in engaging with the agency.
    With that, I urge my colleagues to support this 
legislation, and I yield back.
    Chairwoman VELAZQUEZ. Thank you. The gentlelady yields 
back. Are there any other Members who wish to be recognized for 
a statement on H.R. 3462?
    I would now like to recognize the Ranking Member.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. The government 
arguably has the greatest responsibility of any entity in this 
country to protect its data and implement robust cybersecurity 
protections. The SBA is a part of that. Small business owners 
depend on the SBA to keep the personal information that they 
have disclosed safe and secure. This legislation contains the 
necessary accountability and transparency measures small 
businesses need when interacting with the federal government. I 
support the bipartisan bill and urge my colleagues to do the 
same.
    With that, Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. I would 
now like to recognize myself briefly.
    For more than 20 years, the SBA's Office of Inspector 
General has listed IT security as one of the most serious 
management and performance challenges facing the agency. The 
demand for the Paycheck Protection Program and the Economic 
Injury Disaster Loan programs inundated SBA's legacy system, 
leading to backend system crashes, portals operating slowly, 
and a glitch that led to a data breach of applicants' personal 
information. SBA failed to make any public announcement about 
the data breach. It took weeks for the agency to send paper 
notifications to affected individuals.
    We trust that SBA has taken the necessary steps to recover, 
but we want a notification system in place before the next 
cybersecurity incident. This bill sets new reporting 
requirements to ensure congressional and public awareness.
    I want to thank Mr. Crow and Mrs. Young Kim for this vital 
legislation. I urge a yes vote.
    If there is no further discussion, the Committee will move 
on to consider H.R. 3462. The clerk will report the bill.
    The CLERK. H.R. 3462----
    Chairwoman VELAZQUEZ. Without objection, H.R. 3462 is 
considered as read and open for amendment at any point.
    Does anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 3462.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 3462 
is agreed to.
    The question now occurs on reporting H.R. 3462 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 3462 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    H.R. 4515
    We will now consider H.R. 4515, the ``Small Business 
Development Center Cyber Training Act of 2021,'' introduced by 
Congressman Garbarino and cosponsored by Mr. Evans, Ms. 
Houlahan, and Mr. Chabot. This bill helps Small Business 
Development Centers become better equipped to assist small 
entities with their cybersecurity needs.
    I would now like to recognize the gentleman from New York, 
Mr. Garbarino, the sponsor of the bill, for an opening 
statement.
    Mr. GARBARINO. Thank you, Chairwoman. The use of 
information technology in this modern age is inescapable. We 
rely on it to do everything from the mundane to the miraculous. 
This can, however, be a double-edged sword.
    As indispensable as it is to our everyday lives, it also 
exposes us to a host of new vulnerabilities. Just a few short 
weeks ago, a series of widely reported ransomware attacks 
caused significant disruption and damage to thousands of 
individuals and businesses, including small businesses.
    Cyber criminals are, unfortunately, targeting small 
businesses precisely because of their lack of knowledge and 
awareness of proper cyber hygiene as a result of weak and 
nonexistent cybersecurity measures. The outcome of a cyber 
attack can be catastrophic for small business owners, leaving 
many unable to recover from the loss of their intellectual 
property and resources. This is why this legislation introduced 
by myself, Congressman Evan, Congresswoman Houlahan, and former 
Ranking Member Chabot is so critical. Congressman Phillips and 
Congresswoman Tenney are also cosponsors and they are on this 
Committee and I want to thank them.
    H.R. 4515, the ``Small Business Development Center Cyber 
Training Act of 2021,'' utilizes the far reach and resources of 
the SBDCs across the country to assist small businesses with 
planning and implementing cybersecurity measures to defend 
against cyber attacks. This bipartisan bill establishes a cyber 
counseling certification program for SBDC staff to ensure that 
they are properly educated and trained on the latest cyber 
threat developments, so that the information may be shared with 
small businesses seeking assistance from the SBDCs.
    The cyber assistance offered by trained SBDC staff would be 
provided at no or low cost to small businesses. By leveraging 
the expertise of SBDCs and their partner agencies, small 
businesses can take a more proactive and defensive approach to 
cybersecurity. Understanding that this will require resources, 
the legislation authorizes the SBA to reimburse SBDCs for 
employee certification costs up to $350,000 per fiscal year.
    The bill also utilizes existing federal resources to cover 
the reimbursement costs. Small businesses are in dire need of 
assistance to combat rapidly evolving cyber threats and this 
commonsense, bipartisan legislation will help them get there.
    I urge my colleagues to support this measure, and I yield 
back.
    Chairwoman VELAZQUEZ. Thank you. The gentleman yields back. 
I would now like to recognize the gentleman from Pennsylvania, 
Mr. Evans.
    Mr. EVANS. Thank you, Madam Chair and Ranking Member. And 
thank you, Madam Chair, for your leadership of this Committee. 
Thank you for what you have done and I thank my co-leaders in 
terms of this particular issue.
    As you know, I consider small businesses to be the 
foundation of our community. They are the engines that drive 
innovation, inventiveness, investments, and economic 
development. They are the pillars that prop up our community.
    Yet, as technology makes things easier, it is also open to 
vulnerabilities. The same tools that are making our lives 
better are also making our personal information easier to 
access for both good and bad actors. The FBI 2020 Cyber Crime 
Report showed that attacks on business email accounts cost $1 
trillion and this doesn't represent the future picture. As many 
businesses do not report these cyber attacks, around 60 percent 
of firms go out of business within 6 months after a data 
breach.
    However, good cybersecurity does not come cheap. It can 
cost tens of thousands of dollars to establish a good defense 
against cyber attacks. Because of the evolving world of cyber 
threats, cybersecurity is an ongoing cost. As a result, it is 
critical we help our small businesses that are the backbone of 
our nation's economy and ensure that they are given the 
training they need to defend themselves from cyber attacks.
    I thank you, Madam Chair and Ranking Member, for your 
leadership on this, and I yield back. Back to you.
    Chairwoman VELAZQUEZ. The gentleman yields back. Now I 
recognize the gentlelady from Pennsylvania, Ms. Houlahan, 
cosponsor of the bill.
    Ms. HOULAHAN. Thank you, Madam Chair. I want to make the 
following really clear to everyone on this Committee and the 
American people if it hasn't been already clear, if we aren't 
protecting our small businesses, then we are not protecting our 
economy. The rise in cyber attacks against our economic 
infrastructure should be the cause for very serious alarm. We 
need to be doing everything our power to not only shore up our 
defenses, but also to equip our small businesses and business 
owners with the tools that they need to be able to defend their 
businesses.
    I am really proud to partner with Representative Chabot, 
Evans, and Garbarino on this effort to support the passage of 
the Small Business Development Center, or SBDC, Cyber Training 
Act of 2021. We have to ensure that SBDCs are equipped to help 
our nation's small businesses and that they have the resources 
and the guidance that they need to respond to cyber threats. I 
urge my colleagues to join me in full support of this bill.
    Thank you and I yield back, Madam Chair.
    Chairwoman VELAZQUEZ. The gentlewoman yields back. Are 
there any other Members who wish to be recognized for a 
statement on this bill? I recognize the Ranking Member.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. It is abundantly 
clear that no business, regardless of size or the amount of 
available resources, is 100 percent safe from cyber threats. If 
large businesses can become victims of cybercrimes, small 
businesses are even more vulnerable.
    This bipartisan legislation will make it possible for small 
businesses to receive guidance and counseling from the SBDCs on 
the most up-to-date cybersecurity practices at virtually no 
cost. This is exactly what small businesses need. I urge my 
colleagues' support.
    Madam Chair, with that, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. I would 
like to make a statement myself.
    Small businesses are especially vulnerable to cyber attacks 
due to limited resources and technical knowledge. SBDCs are 
ready, willing, and able to fill this gap. H.R. 4515 will 
establish a cyber counseling certification program in SBDCs to 
provide specific, free-of-charge cyber training for small 
businesses.
    Congress and the SBA must meet the demand for cybersecurity 
training and resources. Thank you to my colleagues for 
reintroducing this bill. I urge a yes vote.
    If there is no further discussion, the Committee will move 
on to consideration of H.R. 4515. The clerk will report the 
bill.
    The CLERK. H.R. 4515, the Small Business Development----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4515 is 
considered as read and open for amendment at any point.
    Does anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 4515.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4515 
is agreed to.
    The question now occurs on reporting H.R. 4515 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4515 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    H.R. 4513
    We will now take up the bill on the final bill on the 
agenda, H.R. 4513, the ``Small Business Advanced Cybersecurity 
Enhancements Act of 2021,'' introduced by Congressman Donalds 
and myself, Congresswoman Houlahan, and Congressman Chabot. 
This bill will provide additional resources and protection for 
small employers and encourage good faith collaboration with the 
federal government.
    I would now like to recognize the gentleman from Florida, 
Mr. Donalds, the sponsor of the bill, for an opening statement.
    Mr. DONALDS. Thank you, Madam Chair, and thank you as well, 
Ranking Member. I would also like to thank you, Madam Chair, 
for holding last Tuesday's Committee hearing on the 
cybersecurity posture of America's small businesses. The 
testimony we heard from the witnesses made it abundantly clear 
that having a consistent, rapid flow of information between the 
private and public sectors is critical in the fight against 
cybercrime. Because small businesses are targeted by 
cybercriminals nearly half of the time, these businesses 
collectively have a wealth of critical information that could 
be utilized to identify, prevent, and mitigate future attacks.
    Unfortunately, as we learned in the hearing, small 
businesses are often reluctant to disclose to anyone, 
especially the government, any information about cyber attacks 
that may have been sustained. This ultimately leaves our 
national cybersecurity posture in a weakened state and 
vulnerable to attack.
    The federal government has recognized this dilemma and has 
taken steps to both prevent and mitigate cyber attacks on small 
businesses. However, small business reluctance and 
unwillingness to engage still exists.
    We must give small businesses the confidence that they need 
to engage with the federal agencies tasked with protecting 
them, which is why the Chairwoman and I, along with 
Congresswoman Houlahan and former Ranking Member Chabot 
introduced H.R. 4513, the ``Small Business Advanced 
Cybersecurity Enhancements Act of 2021.'' This bipartisan 
legislation safeguards small businesses from cyber attacks by 
establishing the Small Business Development Centers as a 
primary liaison for information sharing for small businesses 
seeking to report cyber threats.
    This bill authorizes the free flow of information from the 
SBDCs to cybersecurity experts at the Department of Homeland 
Security and, importantly, expands the Cybersecurity 
Information Sharing Act, or CISA, protections for small 
businesses. By expanding liability protections and giving small 
businesses a readily accessible and local resource to tap into 
when dealing with cyber threats, the bill removes many of the 
barriers small business owners are facing when confronted with 
a cyber attack.
    I urge my colleagues to support this bill, and I yield 
back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Are there 
any other Members who wish to be recognized for a statement on 
this bill? I would like to recognize the Ranking Member.
    Mr. LEUTKEMEYER. Thank you, Madam Chair. Cybercrime is a 
booming industry and cybercriminals are strongly incentivized 
to come up with new methods of attack. We know when small 
businesses are attacked they may be reluctant to disclose such 
information to the government agencies tasked with helping 
them. The more we know, the better prepared we can be, both 
defensively and offensively, against future cyber attacks. H.R. 
4513 encourages small businesses to work with the federal 
government instead of fearing it.
    I urge my colleagues to support the bill before us. With 
that, Madam Chair, I yield back.
    Chairwoman VELAZQUEZ. The gentleman yields back. Thank you. 
I would now like to recognize myself.
    Protecting our nation from malicious cyber actors is a top 
priority of this Committee. It is vital that the federal 
government work closely with the private sector, not just the 
large corporations and contractors, but also the small firms 
that drive our supply chains. Everyone has a role to play.
    Last week, experts detailed the cybersecurity landscape for 
small firms and the tangled web of public and private support 
mechanisms. This bill facilitates regular collaboration between 
small businesses and the federal government, and ultimately 
fortifies our nation's cyber defenses.
    Thank you, Mr. Donalds, for reintroducing this bill. I am 
pleased to be an original cosponsor. I urge my colleagues to 
vote yes.
    If there is no further discussion, the Committee will move 
on to consideration of 4513. The clerk will report the bill.
    The CLERK. H.R. 4513----
    Chairwoman VELAZQUEZ. Without objection, H.R. 4513 is 
considered as read and open for amendment at any point.
    Does anyone seek recognition to offer an amendment?
    Seeing none, the question is now on H.R. 4513.
    All in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4513 
is agreed to.
    The question now occurs on reporting H.R. 4513 favorably to 
the House.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the ayes have it and H.R. 4513 
is reported to the House.
    Without objection, Committee staff is authorized to correct 
punctuation and make other necessary technical corrections and 
conforming changes. Without objection, Members have 2 business 
days to file additional supplemental, dissenting, and minority 
views.
    I want to thank all of the Members for their participation 
today. If there is no further business to come before the 
Committee, without objection, this meeting is adjourned.
    [Whereupon, at 11:02 a.m., the committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
